No. 20-711

 

 

IN THE

Supreme Court of the United States

CTY OF FAIRBANKS, JAMES GEIER, CLIFFORD AARON
RING, CHRIS NOLAN AND DAVE KENDRICK,

Petitioners,
v.

MARVIN ROBERTS, GEORGE FRESE,
KEVIN PEASE AND EUGENE VENT,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
